                               Railroad Retirement Board
                               Office of Inspector General
                Contingency Plan During a Lapse in Appropriations
                                          9/27/2013


The following plan has been developed in accordance with guidelines contained in Section
124 of OMB Circular No. A-11. This plan provides for actions to be taken by the Railroad
Retirement Board – Office of Inspector General (RRB-OIG) when Congress does not enact
regular appropriations, a continuing resolution, or needed supplementals, resulting in an
interruption of fund availability.
In the absence of appropriations, the Antideficiency Act (31 U.S.C. 1341) prohibits RRB-
OIG officials from incurring obligations that cannot lawfully be funded, unless such
obligations are otherwise authorized by law. Therefore, with some exceptions, RRB-OIG
employees will have to be furloughed during a temporary lapse in appropriations.
In accordance with Section 124.2 of Circular A-11, the RRB-OIG currently has 49
employees in pay status. In the event of a funding hiatus, we would have 24 employees in
excepted status and one employee in exempt status. We expect that we will be able to
implement a shutdown in a half-day.
Employees of the RRB-OIG in criminal investigator positions (1811 series – 17 employees)
perform law enforcement activities that are considered excepted activities that would be
exempt from furlough (see Section 124.2 of A-11).
 The Presidentially Appointed Inspector General is exempt from furlough by statute. The
Assistant Inspector General for Audit will assist in fulfilling the statutory responsibilities of
the Inspector General. The Assistant Inspector General for Investigations will oversee
criminal investigative activities of the office, while the Deputy Inspector General/RRB-OIG
General Counsel will perform administrative responsibilities and provide assistance in legal
matters and criminal investigations. The Assistant to the Inspector General will oversee
the financial activities of the office and ensure that obligations are within the limits set by
the existing appropriation.
One information systems professional who maintains and protects the RRB-OIG’s
computer systems is also an excepted employee. Two additional employees will also be
required to support RRB-OIG statutory responsibilities and assist our criminal
investigative employees.
When a lapse in appropriations occurs, the following actions will be taken:
   1. The Office of Inspector General will advise employees of the situation surrounding
      the lapse in appropriations and any other information that is available.
                                         -2-



2. Notices will be prepared and distributed to employees not exempt from furlough.
   Affected employees will be asked to make sure their RRB Emergency Notification
   System (ENS) contact information is current so they can be reached for quick recall
   from furlough. We expect that implementing the shutdown will take a half day.
3. SF-52’s (Request for Personnel Action) will be prepared for furloughed employees.
4. Necessary documents such as SF-50’s (Notification of Personnel Actions), Merit
   Systems Protection Board appeals information and Unemployment Insurance
   information will be mailed or emailed to furloughed employees as soon as
   practicable.


Leave

Employees exempt from furlough cannot be in leave status. Therefore, the RRB-OIG
must take one of the following actions:

(1) cancel any approved paid leave during the furlough and/or deny any new requests
for paid leave; or

(2) furlough the employee for the period of the employee's absence from duty. An
agency may subsequently terminate the furlough whenever the employee's services are
required for excepted activities.

If an excepted employee refuses to report for work after being ordered to do so, he or
she will be considered absent without leave (AWOL).

Employees not exempt from furlough who have requested and been granted leave for a
day subsequently designated as a furlough day will have that leave automatically
cancelled because the necessity to furlough supersedes leave rights. Furlough days are
non-workdays. Annual, sick, and court leave cannot be granted on a non-workday.


Travel/Training
In making assignments involving travel/training for their employees who would be
furloughed during a lapse of appropriations, supervisors and managers should be aware
of and take into consideration the likelihood of a lapse in funding. When a lapse seems
likely, travel/training should be avoided or postponed when possible.
An employee in travel/training status who is to be furloughed should be contacted and
notified to return to his/her duty station. An employee who has, on or before the first
day of the lapsed appropriation, begun travel and transport to a new duty station or to a
                                          -3-



training session should continue to his/her destination and, upon arrival, immediately
contact his/her supervisor for instructions. The supervisor will inform notify the
employee of their furlough status.


Government Provided Equipment
All furloughed employees assigned government equipment will receive instructions
regarding the use of this equipment during a furlough period. RRB-OIG will not be able
to communicate with furloughed employees about official duties and furloughed
employees may not perform official duties by email or telephone. RRB-OIG may
require furloughed employees to turn in their cell phones and laptop computers and set
an “out of office” message on their phone and email accounts.


Volunteer work
The Anti-Deficiency Act prohibits volunteer work by furloughed employees.
Supervisors and managers who are not furloughed should monitor their organizational
units to make sure that no furloughed employees are working.


Contractors
RRB-OIG will determine if funding for any of the contractors working on continuing
projects is affected by the lapse of appropriations and notify the affected contractors of
the funding lapse. The contractor can then make an informed decision as to whether to
allow its employees to continue working. At present, all existing contracts in the RRB-
OIG are required to maintain and protect property or support criminal investigative
activities.


Actions Taken When Funding Is Restored
Once an appropriation or continuing resolution is passed, all employees will be recalled
to work. Recall of furloughed employees will be handled largely by the RRB Emergency
Notification System (ENS) or other electronic contact.
